Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




     MEDICARE COMPLIANCE
           REVIEW OF
    NEBRASKA MEDICAL CENTER
      FOR CALENDAR YEARS
         2010 AND 2011


  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                       March 2014
                                                      A-07-12-05037
                        Office of Inspector General
                                        https://oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
             at https://oig.hhs.gov/

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                     EXECUTIVE SUMMARY

Nebraska Medical Center did not fully comply with Medicare requirements for billing
outpatient and inpatient services, resulting in overpayments of approximately $320,000 over
more than 2 years.

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

The objective of this review was to determine whether Nebraska Medical Center (the Hospital)
complied with Medicare requirements for billing outpatient and inpatient services on selected
claims.

BACKGROUND

The Centers for Medicare & Medicaid Services (CMS) pays for hospital outpatient services on a
rate-per-service basis that varies according to the assigned ambulatory payment classification.
CMS pays inpatient hospital costs at predetermined rates for patient discharges. The rates vary
according to the diagnosis-related group (DRG) to which a beneficiary’s stay is assigned and the
severity level of the patient’s diagnosis. The DRG payment is, with certain exceptions, intended
to be payment in full to the hospital for all inpatient costs associated with the beneficiary’s stay.

The Hospital is a 627-bed acute care hospital located in Omaha, Nebraska. Medicare paid the
Hospital approximately $279 million for 180,856 outpatient and 16,357 inpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

Our audit covered $9,590,001 in Medicare payments to the Hospital for 185 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 71
outpatient and 114 inpatient claims. Of the 185 claims, 178 claims had dates of service in CYs
2010 or 2011, and 7 claims (involving outpatient and inpatient manufacturer credits for replaced
medical devices) had dates of service in CY 2009.

WHAT WE FOUND

The Hospital complied with Medicare billing requirements for 151 of the 185 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare billing
requirements for the remaining 34 claims, resulting in overpayments of $319,731 for CYs 2010
and 2011 (27 claims) and CY 2009 (7 claims). Specifically, 12 outpatient claims had billing
errors, resulting in overpayments of $170,204, and 22 inpatient claims had billing errors,


Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                            i
resulting in overpayments of $149,527. These errors occurred primarily because the Hospital did
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors.

WHAT WE RECOMMEND

We recommend that the Hospital:

    •   refund to the Medicare contractor $319,731, consisting of $170,204 in overpayments for
        12 incorrectly billed outpatient claims and $149,527 in overpayments for 22 incorrectly
        billed inpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

AUDITEE COMMENTS AND OUR RESPONSE

In written comments on our draft report, the Hospital concurred with the majority of our findings
and recommendations and said that it had filed adjustments for the claims related to the findings
with which it concurred.

The Hospital did not concur with our findings on eight inpatient claims, with $50,278 in
associated questioned costs, in which we found that the Hospital should have billed the claims as
outpatient or outpatient with observation services. The Hospital described its process for internal
review of medical necessity and stated that it did not believe that “… the preexisting medical
problems and other extenuating circumstances associated with these patients, as documented in
the medical records, were fully considered in [OIG’s] review of these cases.” The Hospital also
said that in the case of two of these eight inpatient claims, two external entities had each
reviewed one of the claims in question and determined that the claim met the criteria for
inpatient admission.

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid. We used an independent medical review contractor to determine whether the eight
inpatient claims with which the Hospital disagreed met medical necessity requirements. The
contractor examined all of the medical records and documentation submitted and carefully
considered this information to determine whether the Hospital billed the inpatient claims
according to Medicare requirements. Based on the contractor’s conclusions, we determined, and
continue to believe, that the Hospital should have billed the eight inpatient claims as outpatient
or outpatient with observation services. We are aware that statutory authority exists under which
various external entities, such as the two that the Hospital mentioned, can review the allowability
of Medicare claims. However, our own work as the OIG is separate from and independent of the
reviews that external entities can conduct. In the case of these eight inpatient claims, our
medical review contractor, which itself was separate from and independent of us, determined that
these claims had been incorrectly billed.




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                          ii
                                                    TABLE OF CONTENTS


INTRODUCTION .........................................................................................................................1

       Why We Did This Review .....................................................................................................1

      Objective ................................................................................................................................1

      Background ............................................................................................................................1
          The Medicare Program ..................................................................................................1
          Hospital Outpatient Prospective Payment System ........................................................1
          Hospital Inpatient Prospective Payment System ...........................................................1
          Hospital Claims at Risk for Incorrect Billing ................................................................2
          Medicare Requirements for Hospital Claims and Payments .........................................2
          Nebraska Medical Center ..............................................................................................3

      How We Conducted This Review ..........................................................................................3

FINDINGS .....................................................................................................................................3

      Billing Errors Associated With Outpatient Claims ................................................................4
            Insufficiently Documented Units of Service .................................................................4
            Manufacturer Credits for Replaced Medical Devices Not Reported ............................4
            Services Not Billable to Medicare.................................................................................4

       Billing Errors Associated With Inpatient Claims ..................................................................5
             Incorrectly Billed as Inpatient .......................................................................................5
             Incorrectly Billed Diagnosis-Related Group Codes ......................................................6
             Manufacturer Credits for Replaced Medical Devices Not Reported ............................6
             Incorrectly Billed as Separate Inpatient Stays ...............................................................6
             Incorrect Discharge Status.............................................................................................7

RECOMMENDATIONS ...............................................................................................................7

AUDITEE COMMENTS...............................................................................................................7

OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................................8

APPENDIXES

        A: Audit Scope and Methodology .......................................................................................9

        B: Results of Review by Risk Area ...................................................................................11

        C: Auditee Comments ........................................................................................................12



Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                                                        iii
                                                INTRODUCTION

WHY WE DID THIS REVIEW

This review is part of a series of hospital compliance reviews. Using computer matching, data
mining, and data analysis techniques, we identified hospital claims that were at risk for
noncompliance with Medicare billing requirements. For calendar year (CY) 2012, Medicare
paid hospitals $148 billion, which represents 43 percent of all fee-for-service payments;
therefore, the Office of Inspector General (OIG) must provide continual and adequate oversight
of Medicare payments to hospitals.

OBJECTIVE

Our objective was to determine whether Nebraska Medical Center (the Hospital) complied with
Medicare requirements for billing outpatient and inpatient services on selected claims.

BACKGROUND

The Medicare Program

Medicare Part A provides inpatient hospital insurance benefits and coverage of extended care
services for patients after hospital discharge, and Medicare Part B provides supplementary
medical insurance for medical and other health services, including coverage of hospital
outpatient services. The Centers for Medicare & Medicaid Services (CMS) administers the
Medicare program.

CMS contracts with Medicare contractors to, among other things, process and pay claims
submitted by hospitals.

Hospital Outpatient Prospective Payment System

CMS implemented an outpatient prospective payment system (OPPS), which is effective for
services furnished on or after August 1, 2000, for hospital outpatient services. Under the OPPS,
Medicare pays for hospital outpatient services on a rate-per-service basis that varies according to
the assigned ambulatory payment classification (APC). CMS uses Healthcare Common
Procedure Coding System (HCPCS) codes and descriptors to identify and group the services
within each APC group. 1 All services and items within an APC group are comparable clinically
and require comparable resources.

Hospital Inpatient Prospective Payment System

CMS pays hospital costs at predetermined rates for patient discharges under the inpatient
prospective payment system (IPPS). The rates vary according to the diagnosis-related group
(DRG) to which a beneficiary’s stay is assigned and the severity level of the patient’s diagnosis.

1
 HCPCS codes are used throughout the health care industry to standardize coding for medical procedures, services,
products, and supplies.


Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                        1
The DRG payment is, with certain exceptions, intended to be payment in full to the hospital for
all inpatient costs associated with the beneficiary’s stay.

Hospital Claims at Risk for Incorrect Billing

Our previous work at other hospitals identified these types of claims at risk for noncompliance:

    •   outpatient claims with payments greater than $25,000,

    •   outpatient and inpatient claims paid in excess of charges,

    •   outpatient and inpatient manufacturer credits for replaced medical devices,

    •   outpatient surgeries billed with units greater than one,

    •   outpatient claims billed with modifiers -74 and -91,

    •   outpatient claims billed with modifier -25,

    •   inpatient short stays,

    •   inpatient claims billed with high severity level DRG codes,

    •   inpatient same-day discharges and readmissions,

    •   inpatient transfers,

    •   inpatient claims with payments greater than $150,000, and

    •   inpatient hospital-acquired conditions and present-on-admission indicator reporting.

For the purposes of this report, we refer to these areas at risk for incorrect billing as “risk areas.”
We reviewed these risk areas as part of this review.

Medicare Requirements for Hospital Claims and Payments

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Social Security Act (the Act), § 1862(a)(1)(A)). In addition, the
Act precludes payment to any provider of services or other person without information necessary
to determine the amount due the provider (§ 1833(e)).

Federal regulations state that the provider must furnish to the Medicare contractor sufficient
information to determine whether payment is due and the amount of the payment (42 CFR
§ 424.5(a)(6)).



Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                              2
The Medicare Claims Processing Manual (the Manual) requires providers to complete claims
accurately so that Medicare contractors may process them correctly and promptly (Pub. No.
100-04, chapter 1, § 80.3.2.2). In addition, the Manual states that providers must use HCPCS
codes for most outpatient services (chapter 23, § 20.3).

Nebraska Medical Center

The Hospital is a 627-bed acute care hospital located in Omaha, Nebraska. Medicare paid the
Hospital approximately $279 million for 180,856 outpatient and 16,357 inpatient claims for
services provided to beneficiaries during CYs 2010 and 2011 based on CMS’s National Claims
History data.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $9,590,001 in Medicare payments to the Hospital for 185 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 71
outpatient and 114 inpatient claims. Of the 185 claims, 178 claims had dates of service in CYs
2010 or 2011, and 7 claims (involving outpatient and inpatient manufacturer credits for replaced
medical devices) had dates of service in CY 2009. 2 We focused our review on the risk areas that
we had identified as a result of previous OIG reviews at other hospitals. We evaluated
compliance with selected billing requirements and subjected 13 claims to focused medical
review to determine whether the services were medically necessary. This report focuses on
selected risk areas and does not represent an overall assessment of all claims submitted by the
Hospital for Medicare reimbursement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

See Appendix A for the details of our scope and methodology.

                                                  FINDINGS

The Hospital complied with Medicare billing requirements for 151 of the 185 outpatient and
inpatient claims we reviewed. However, the Hospital did not fully comply with Medicare billing
requirements for the remaining 34 claims, resulting in overpayments of $319,731 for CYs 2010
and 2011 (27 claims) and CY 2009 (7 claims). Specifically, 12 outpatient claims had billing
errors, resulting in overpayments of $170,204, and 22 inpatient claims had billing errors,
resulting in overpayments of $149,527. These errors occurred primarily because the Hospital did
not have adequate controls to prevent the incorrect billing of Medicare claims within the selected
risk areas that contained errors. For the results of our review by risk area, see Appendix B.


2
 We selected these seven claims for review because the risk area that involves manufacturer credits for replaced
medical devices has a high risk of billing errors.


Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                          3
BILLING ERRORS ASSOCIATED WITH OUTPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 12 of 71 selected outpatient claims that we
reviewed. These errors resulted in overpayments of $170,204.

Insufficiently Documented Units of Service

The Act precludes payment to any provider of services or other person without information
necessary to determine the amount due the provider (§ 1833(e)). The Manual states: “In order to
be processed correctly and promptly, a bill must be completed accurately” (chapter 1,
§ 80.3.2.2).

For 8 out of 71 selected claims, the Hospital submitted the claims to Medicare with units of
service that were unsupported in the medical records. The Hospital attributed the overpayments
to system or process issues within the pharmacy and the blood bank responsible for the entry of
the charges. As a result of these errors, the Hospital received overpayments of $149,816.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require a reduction in the OPPS payment for the replacement of an implanted
device if (1) the device is replaced without cost to the provider or the beneficiary, (2) the
provider receives full credit for the cost of the replaced device, or (3) the provider receives
partial credit equal to or greater than 50 percent of the cost of the replacement device (42 CFR
§ 419.45). For services furnished on or after January 1, 2007, CMS requires the provider to
report the modifier “FB” and reduced charges on a claim that includes a procedure code for the
insertion of a replacement device if the provider incurs no cost or receives full credit for the
replaced device. If the provider receives a replacement device without cost from the
manufacturer, the provider must report a charge of no more than $1 for the device. 3

For 3 out of 71 selected claims, the Hospital received full credit for replaced medical devices but
did not report the “FB” modifier and reduced charges on its claims. (Of the three claims, one
had a date of service in CY 2009 and two had dates of service in CY 2011.) These overpayments
occurred because the Hospital did not have adequate controls to report the appropriate modifier
and charges to reflect credits received from manufacturers. As a result of these errors, the
Hospital received overpayments of $13,859.

Services Not Billable to Medicare

Section 1862(a)(12) of the Act states: “No payment may be made under Part A or Part B for any
expenses incurred for items or services where such expenses are for services in connection with
the care, treatment, filling, removal, or replacement of teeth or structures directly supporting
teeth….”



3
 CMS provides guidance on how a provider should report no-cost and reduced-cost devices under the OPPS (CMS
Transmittal 1103, dated November 3, 2006, and the Manual, chapter 4, § 61.3).


Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                   4
For 1 out of 71 selected claims, the Hospital incorrectly billed Medicare for services related to
the removal of teeth. The Hospital stated that its staff had reviewed charges before submission
and had identified dental procedures as non-covered. However, at the time of submission,
human error occurred and the dental-specific services were not moved to a non-covered status on
the claim. As a result of this error, the Hospital received an overpayment of $6,529.

BILLING ERRORS ASSOCIATED WITH INPATIENT CLAIMS

The Hospital incorrectly billed Medicare for 22 of 114 selected inpatient claims that we
reviewed. These errors resulted in overpayments of $149,527.

Incorrectly Billed as Inpatient

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

According to Chapter 1, section 10, of the CMS Benefit Policy Manual, factors that determine
whether an inpatient admission is medically necessary include:

    •   the severity of the signs and symptoms exhibited by the patient;

    •   the medical predictability of something adverse happening to the patient;

    •   the need for diagnostic studies that appropriately are outpatient services (i.e., their
        performance does not ordinarily require the patient to remain at the hospital for 24 hours
        or more) to assist in assessing whether the patient should be admitted; and

    •   the availability of diagnostic procedures at the time when and at the location where the
        patient presents.

For 8 out of 114 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
stays that should have been billed as outpatient or outpatient with observation services. Our
medical reviewer determined that inpatient admission was not medically necessary for these
beneficiaries. The Hospital disagreed that these claims were billed in error. As a result of these
errors, the Hospital received overpayments of $50,278. 4




4
 The Hospital may be able to bill Medicare Part B for all services (except for services that specifically require an
outpatient status) that would have been reasonable and necessary had the beneficiary been treated as a hospital
outpatient rather than admitted as an inpatient. We were unable to determine the effect that billing Medicare Part B
would have on the overpayment amount because these services had not been billed and adjudicated by the Medicare
administrative contractor before the issuance of our report.


Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                           5
Incorrectly Billed Diagnosis-Related Group Codes

Medicare payments may not be made for items or services that “… are not reasonable and
necessary for the diagnosis or treatment of illness or injury or to improve the functioning of a
malformed body member” (the Act, § 1862(a)(1)(A)).

For 4 out of 114 selected claims, the Hospital billed Medicare for incorrect DRG codes that,
specifically, were not supported in the medical records. The Hospital attributed these
overpayments to decisionmaking and the manual nature of industry coding, and added that
workflows have the potential for human error from time to time. As a result of these errors, the
Hospital received overpayments of $46,669.

Manufacturer Credits for Replaced Medical Devices Not Reported

Federal regulations require reductions in the IPPS payments for the replacement of an implanted
device if (1) the device is replaced without cost to the provider, (2) the provider receives full
credit for the device cost, or (3) the provider receives a credit equal to 50 percent or more of the
device cost (42 CFR § 412.89). The Manual states that to bill correctly for a replacement device
that was provided with a credit, hospitals must code Medicare claims with a combination of
condition code 49 or 50, along with value code “FD” (chapter 3, § 100.8).

For 7 out of 114 selected claims, the Hospital received reportable medical device credits from
manufacturers but did not adjust its inpatient claims with the appropriate condition and value
codes to reduce payment as required. (Of the seven claims, five had dates of service in CY 2009
and two had dates of service in CY 2010.) These overpayments occurred because the Hospital
did not have adequate controls to report the appropriate condition and value codes in order to
accurately reflect credits it had received from manufacturers. As a result of these errors, the
Hospital received overpayments of $29,788.

Incorrectly Billed as Separate Inpatient Stays

The Manual (chapter 3, § 40.2.5) states:

        When a patient is discharged/transferred from an acute care Prospective Payment
        System (PPS) hospital, and is readmitted to the same acute care PPS hospital on
        the same day for symptoms related to, or for evaluation and management of, the
        prior stay’s medical condition, hospitals shall adjust the original claim generated
        by the original stay by combining the original and subsequent stay onto a single
        claim.

For 2 out of 114 selected claims, the Hospital billed Medicare separately for related discharges
and readmissions that occurred within the same day. The Hospital stated that the incorrect
billings were a result of human error. As a result of these errors, the Hospital received
overpayments of $20,194.




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                              6
Incorrect Discharge Status

Federal regulations state that a discharge of a hospital inpatient is considered to be a transfer
when the patient’s discharge is assigned to one of the qualifying DRGs and the discharge is to
home under a written plan of care for the provision of home health services (42 CFR § 412.4(c)).
A hospital that transfers an inpatient under the above circumstances is paid a graduated per diem
rate for each day of the patient’s stay in that hospital, not to exceed the full DRG payment that
would have been paid if the patient had been discharged to another setting (42 CFR § 412.4(f)).

For 1 out of 114 selected claims, the Hospital incorrectly billed Medicare for a patient discharge
that should have been billed as a transfer. Specifically, the claim was billed with discharge status
code “7” (which denotes discharged against medical advice) when status code “6” (discharged to
home under a written plan of care for the provision of home health services) was appropriate.
The Hospital stated that, at the time of discharge, status code “7” was accurate because the
patient left against medical advice. The Hospital added that a followup appointment was made
for the patient prior to discharge and that its staff did not complete a home health agency referral
for the patient. Our analysis of the Medicare billing data for this patient indicated that the patient
subsequently received home health services after discharge from the Hospital, and we
acknowledge that this information would not have been readily available to or accessible by the
Hospital’s billing staff. Nevertheless, as a result of this error, the Hospital received an
overpayment of $2,598.

                                      RECOMMENDATIONS

We recommend that the Hospital:

    •   refund to the Medicare contractor $319,731, consisting of $170,204 in overpayments for
        12 incorrectly billed outpatient claims and $149,527 in overpayments for 22 incorrectly
        billed inpatient claims, and

    •   strengthen controls to ensure full compliance with Medicare requirements.

                                      AUDITEE COMMENTS

In written comments on our draft report, the Hospital concurred with the majority of our findings
and recommendations and said that it had filed adjustments for the claims related to the findings
with which it concurred.

The Hospital did not concur with our findings on eight inpatient claims, with $50,278 in
associated questioned costs, in which we found that the Hospital should have billed the claims as
outpatient or outpatient with observation services. The Hospital described its process for internal
review of medical necessity and stated that it did not believe that “… the preexisting medical
problems and other extenuating circumstances associated with these patients, as documented in
the medical records, were fully considered in [OIG’s] review of these cases.”




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                            7
The Hospital also said that in the cases of two of these eight inpatient claims, two external
entities had each reviewed one of the claims in question and determined that the claim met the
criteria for inpatient admission. Specifically, one of the claims “… had previously been
successfully appealed and subsequently approved at the QIO [Quality Improvement
Organization] level through the appeal process as meeting criteria for the inpatient admission.”
According to the Hospital, a second claim in our sample “… had previously been reviewed
through a RAC [recovery audit contractor] audit and was deemed appropriate as an inpatient
admission.” 5

The Hospital’s comments are included in their entirety as Appendix C.

                        OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Hospital’s comments, we maintain that our findings and recommendations
are valid.

We used an independent medical review contractor to determine whether the eight inpatient
claims with which the Hospital disagreed met medical necessity requirements. The contractor
examined all of the medical records and documentation submitted and carefully considered this
information to determine whether the Hospital billed the inpatient claims according to Medicare
requirements.

Based on the contractor’s conclusions, we determined, and continue to believe, that the Hospital
should have billed the eight inpatient claims as outpatient or outpatient with observation services.
We are aware that statutory authority exists under which QIOs, RACs, and other external entities
can review the allowability of Medicare claims. However, our own work as the OIG is separate
from and independent of the reviews that external entities can conduct. In the case of these eight
inpatient claims, our medical review contractor, which itself was separate from and independent
of us, determined that these claims had been incorrectly billed.




5
 In the Medicare program, CMS contracts with QIOs in each State, as required by sections 1152—1154 of the Act.
By law, the mission of the QIO program is to improve the effectiveness, efficiency, economy, and quality of
services delivered to Medicare beneficiaries. Section 302 of the Tax Relief and Health Care Act of 2006, P.L. No.
109-432, established the RAC program. The RACs’ mission is to identify Medicare improper payments made on
claims of health care services provided to Medicare beneficiaries.


Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                        8
                   APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $9,590,001 in Medicare payments to the Hospital for 185 claims that we
judgmentally selected as potentially at risk for billing errors. These claims consisted of 71
outpatient and 114 inpatient claims. Of the 185 claims, 178 claims had dates of service in CYs
2010 or 2011, and 7 claims (involving outpatient and inpatient manufacturer credits for replaced
medical devices) had dates of service in CY 2009 (see footnote 2).

We focused our review on the risk areas that we had identified as a result of previous OIG
reviews at other hospitals. We evaluated compliance with selected billing requirements and
subjected 13 claims to focused medical review to determine whether the services were medically
necessary.

We limited our review of the Hospital’s internal controls to those applicable to the outpatient and
inpatient areas of review because our objective did not require an understanding of all internal
controls over the submission and processing of claims. We established reasonable assurance of
the authenticity and accuracy of the data obtained from the National Claims History file, but we
did not assess the completeness of the file.

This report focuses on selected risk areas and does not represent an overall assessment of all
claims submitted by the Hospital for Medicare reimbursement.

We conducted our fieldwork at the Hospital from October 2012 to September 2013.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws, regulations, and guidance;

    •   extracted the Hospital’s outpatient and inpatient paid claim data from CMS’s National
        Claims History file for CYs 2010 and 2011;

    •   obtained information on known credits for replacement medical devices from the device
        manufacturers for CYs 2009 through 2011;

    •   used computer matching, data mining, and other data analysis techniques to identify
        claims potentially at risk for noncompliance with selected Medicare billing requirements;

    •   judgmentally selected 185 claims (71 outpatient and 114 inpatient) for detailed review;

    •   reviewed available data from CMS’s Common Working File for the selected claims to
        determine whether the claims had been cancelled or adjusted;



Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                            9
    •   reviewed the itemized bills and medical record documentation provided by the Hospital
        to support the selected claims;

    •   requested that the Hospital conduct its own review of the selected claims to determine
        whether the services were billed correctly;

    •   used an independent medical review contractor to determine whether 13 selected claims
        met medical necessity requirements;

    •   discussed the incorrectly billed claims with Hospital personnel to determine the
        underlying causes of noncompliance with Medicare requirements;

    •   calculated the correct payments for those claims requiring adjustments; and

    •   discussed the results of our review with Hospital officials on September 11, 2013.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                            10
                            APPENDIX B: RESULTS OF REVIEW BY RISK AREA


                                                                                                      Claims
                                                                                   Value of            With            Value of
                                                               Selected            Selected           Over-             Over-
                    Risk Area                                  Claims              Claims            payments          payments
Outpatient
Claims With Payments Greater Than $25,000                                26            $825,563                 5            $114,654

Claims Paid in Excess of Charges                                           4              73,361                3              35,162
Manufacturer Credits for Replaced Medical
                                                                           4              14,459                3              13,859
Devices
Surgeries Billed With Units Greater Than One                             17             194,276                 1               6,529

Claims Billed With Modifiers -74 and -91                                 13               75,120                0                  0

Claims Billed With Modifier -25                                            7              63,287                0                  0
 Outpatient Totals                                                       71         $1,246,066                 12            $170,204


Inpatient
Short Stays                                                              13             $74,528                 8             $50,278
Claims Billed With High Severity Level DRG
                                                                         54           2,411,221                 4              46,669
Codes
Manufacturer Credits for Replaced Medical
                                                                           7            238,872                 7              29,788
Devices
Same-Day Discharges and Readmissions                                       8              88,317                2              20,194

Transfers                                                                  1              10,944                1               2,598

Claims With Payments Greater Than $150,000                               22           5,226,070                 0                  0

Claims Paid in Excess of Charges                                           8            241,532                 0                  0
Hospital-Acquired Conditions and Present-on-
                                                                           1              52,451                0                  0
Admission Indicator Reporting
 Inpatient Totals                                                       114         $8,343,935                 22            $149,527


 Outpatient and Inpatient Totals                                        185         $9,590,001                 34            $319,731

       Notice: The table above illustrates the results of our review by risk area. In it, we have organized outpatient and
       inpatient claims by the risk areas we reviewed. However, we have organized this report’s findings by the types of
       billing errors we found at the Hospital. Because we have organized the information differently, the information in
       the individual risk areas in this table does not match precisely with this report’s findings.


       Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                           11
                                APPENDIX C: AUDITEE COMMENTS




                                           ~,~ THENEBRASI(L\
                                               •         NfEDICALUNrER'"
           January 14, 2014



           Patrick J. Cogley
           Regional Inspector General for Audit Services
           US Department of Health and Human Services
           Office of Audit Services Region VII
           601 East 1ih Street, Room 0429
           Kansas City, MO 64106

           Re:    Report Number A-07-12-05037
                  The Nebraska Medical Center



           Dear Mr. Cogley,

           On behalf of The Nebraska Medical Center, comments to the report entitled, "Medicare
           Compliance Review of Nebraska Medical Center for Calendar Years 2010 and 2011" dated
           December 2013 are being provided with this correspondence. The Nebraska Medical Center is
           committed to comp liance with all app licable regulations required for the provision health care
           services and we appreciate the opportunity to provide comments to the draft report related to
           the findings.

           As noted in the report, the review is part of a series of hospital compliance reviews. Using
           computer matching, data mining, and data analysis techniques, the sample id entified hospital
           claims th at were at risk for noncompliance with Medicare billing requirements. The draft report
            includes $9,590,001 in Medicare payments to the Hospital for 185 claims that were selected as
           potentially at risk for billing errors. These claims co nsisted of 71 outpatient and 114 inpatient
           claims. Of the 185 claims, 178 claims had dates of service in CYs 2010 or 2011, and 7 claims
           (involving outpatient and inpatient manufacturer credits for replaced medical devices) had
           dates of service in CY 2009. During t he timeframe of the audit Medicare paid th e Hospital
           approximately $279 million for 180,856 outpatient and 16,357 inpatient claims for services
           provided to beneficiaries during CYs 2010 and 2011 based on CMS's National Claims History
           data.

           The report indicated the Hospital complied with Medicare billing requirements for 151 of the
           185 outpatient and inpatient claims reviewed. However, the Hospital did not fully comply with
           Medicare billing requirements for the remaining 34 claims, resu lting in overpayments of
           $319,731 for CYs 2010 and 2011 (27 claims) and CY 2009 (7 claims). Specifically, 12 outpatient
           claims had billing errors, resulting in overpayments of $170,204, and 22 inpatient claims had
           billing errors, r esulting in overpayments of $149,527.

                                         SERIOUS MEDICINE. EXTRAORDINARY CARE.~
                              Executive Office • 987400 Nebras.l:a Medical Center • Omaha., NE 68198-7400
                                      (402) 552-2552 • Fax: (Fax) 402-5522152 • Nebraska Med.com




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                           12
           We have reviewed the draft audit findings and recommendations and generally agree that the
           26 of the 185 claims selected for review reflect inadvertent errors. We do not concur on 8 of
           the total 34 claims where the report has indicated resulted in overpayments and plan to appeal
           those claims. Also pursuant to instructions during the audit The Nebraska Medical Center has
           filed adjustments for the claims identified as not complying with Medicare billing requirements
           where we concurred with the findings of the review to Wisconsin Physicians Services. Copies of
           the adjustments were provided to your office during the audit timeframe .

           The following are the findings and the recommendations and our responses as a result of the
           audit.

           Errors associated with Outpatient Claims

           Insufficiently Documented Units of Service
           Observations:
           The Act precludes payment to any provider of services or other person without information
           necessary to determine the amount due the provider(§ 1833(e)). The Manual states: "In order
           to be processed correctly and promptly, a bill must be completed accurately" (chapter 1, §
           80.3.2.2).
           For 8 out of 71 selected claims, the Hospital submitted the claims to Medicare with units of
           service that were unsupported in the medical records. The Hospital attributed the
           overpayments to system or process issues within the pharmacy and the blood bank responsible
           for the entry of the charges. As a result of these errors, the Hospital received overpayments of
           $149,816

           We concur with the audit findings that the hospital received overpayments totaling $149,816

           The errors were attributed to manual entry and /or inconsistent reconciliation of charge entry
           and/or system errors. As a revision of the control measures, organizational charge accuracy
           policies have been reviewed and are in pl ace and departments are accountable for ensuring
           appropriate charging and reconciliation occurs. Additionally, auditors within our Compliance
           Department audit sample sets of claims prior to submission. In all instances, the identified the
           pharmaceutical and apheresis claims did not meet the qualifications for audit prior to claim
           submission and the identified errors were a result of a system or process issues within the
           pharmacy and the blood bank respon sible for the entry of the charges. We have subsequently
           reviewed our audit criteria and have processes in place for sampling a broader number of
           claims.

           Manufacturer Credits for Replaced Medical Devices Not Reported
           Observations:
           For 3 out of 71 selected claims, the Hospital received full credit for replaced medical devices but
           did not report the "FB" modifier and reduced charges on its claims. (Of the three claims, one
           had a date of service in CY 2009 and two had dates of service in CY 2011.) These overpayments
           occurred because the Hospital did not have adequate controls to report the appropriate




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                            13
           modifier and charges to reflect credits received from manufacturers. As a result of these errors,
           the Hospital received overpayments of $13,859

           We concur with the audit findings that the hospital received overpayments totaling $13,859

           We have determined this to be an area of improvement for our organization. Key controls to
           prevent this type of error were not sufficient. The organization relied upon a communication
           from procedural areas to notify when a device credit or replacement device was received . The
           vendor's method of providing a credit for these devices against our outstanding balance was
           not readily identifiable by Finance, the charging department, or within the Patient Financial
           Services department.

           We have initiated improvements to our policy for identification of when replacement devices
           are used and have met with the various departments involved with the process to heighten
           awareness of the importance in communicating when a replacement device is received . We
           have also taken steps to implement an edit that will not allow billing until review has occurred
           to assist in the identification of devices that are provided at a reduced cost.



           Services Not Billable to Medicare
           Observations:
           For 1 out of 71 selected claims, the Hospital incorrectly billed Medicare for services related to
           the removal of teeth . The Hospital stated that its staff had reviewed charges before submission
           and had identified dental procedures as non-covered. However, at the time of submission,
           human error occurred and the dental-specific services were not moved to a non-covered status
           on the claim . As a result of this error, the Hospital received an overpayment of $6,529.

           We concur with the audit finding that the hospital received a single overpayment for $6,529

           Patient charges were reviewed prior to submission and dental procedures were identified as
           non-covered; however, at the time of submission of the claim human error occurred and the
           dental specific services were not moved to non-covered on the claim .

           Errors associated with Inpatient Claims

           Incorrectly Billed as Inpatient
           Observations:
           For 8 out of 114 selected claims, the Hospital incorrectly billed Medicare Part A for beneficiary
           stays that should have been billed as outpatient or outpatient with observation services. Our
           medical reviewer determined that inpatient admission was not medically necessary for these
           beneficiaries. The Hosp ital disagreed that these claims were billed in error. As a result of these
           errors, the Hospital received overpayments of $50,278.




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                            14
           We do not concur with the audit finding in six (6) instances that the hospital received an
           overpayment for $50,278.



           We do not concur with the medical necessity of determinations of the OIGs medical reviewer
           for eight (8) of the claims reviewed and determined as being incorrectly billed as inpatient and
           plan to appeal once adjustments are requested as a result of the review. At the time of this
           report a request for adjustments has not been received . While we welcome the opportunities
           to examine and challenge our current processes, we believe the Hospital's medical necessity
           determination processes are compliant with Medicare requirements and operating effectively.
           Additionally, one (1) of the claims under review and identified as bill incorrectly as inpatient
           had previously been successfully appealed and subsequently approved at the QIO level through
           the appeal process as meeting criteria for the inpatient admission. A second claim in the sample
           had previously been reviewed through a RAC audit and was deemed appropriate as an
           inpatient admission.

           CMS guidance states medical necessity is a "complex medical judgment which can be made only
           after the physician has considered a number of factors." Therefore, those conducting the
           retrospective reviews via the audit, like their physician counterparts, should consider, in their
           review of the medical record, any pre-existing medical problems or extenuating circumstances
           that made admission of the beneficiary medically necessary. It can be appreciated the difficulty
           of performing a medical necessity retrospective review without the benefit of personally
           examining a patient at the time the patient presents; however, we don't believe the pre­
           existing medical problems and other extenuating circumstances associated with these patients,
           as documented in the medical records, were fully considered in the review of these cases.

           As required by the Medicare Conditions of Participation, the Hospital has developed a
           Utilization Review Plan and has implemented a utilization review process. This process includes
           concurrent reviews of patient admissions and continued patient stays by utilization review case
           managers utilizing a widely accepted set of utilization screening criteria, at the time services
           were rendered for these patients. Currently admission reviews not meeting the widely
           accepted set of utilization screening criteria are referred to an independent, skilled and
           experienced group of physician advisors for concurrent evaluation. We recognize the concept
           of medical necessity is based on a "complex medical judgment" of the patients presentation at
           the time of service rather than a definitive set of criteria, and with the assistance of our
           physician advisors, education is provided to our medical staff on these concepts, and the
           treating physician's role in the utilization review process and the importance of complete
           medical record documentation on an ongoing basis. We have also implemented and utilize a
           Clinical Documentation team to provide the treating physician education in the elements
           required for comprehensive documentation.




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                          15
           Incorrectly Billed Diagnosis-Related Group Codes
           Observations:
           For 4 out of 114 selected claims, the Hospital billed Medicare for incorrect DRG codes that,
           specifically, were not supported in the medical records. The Hospital attributed these
           overpayments to decision making and the manual nature of industry coding, and added that
           workflows have the potential for human error from time to time. As a result of these errors, the
           Hospital received overpayments of $46,669.

           We concur with the audit finding that the hospital received an overpayment for $46,669.

           Organizational key controls include two external audits per year as well as an internal quality
           monitoring program. During the external audits, a sample of records are reviewed which does
           not include 100% of all records due to sheer volume. Coder quality scores are expected to be
           95% or above to meet standards and include all aspects of coding including diagnoses,
           procedure codes, POA, etc. Though all care in this sample set was medically necessary, the
           decision making and manual nature of industry coding workflows has the potential for human
           error from time to time which is what we have identified in these instances.

           Two of the four identified errors did have documentation within the record to indicate the
           original coded diagnosis; however, a conservative approach was taken and the diagnoses were
           either removed or changed due to the minimal amount of documentation within the record .



           Manufacturer Credits for Replaced Medical Devices Not Reported
           Observations:
           For 7 out of 114 selected claims, the Hospital received reportable medical device credits from
           manufacturers but did not adjust its inpatient claims with the appropriate condition and value
           codes to reduce payment as required. (Of the seven claims, five had dates of service in CY 2009
           and two had dates of service in CY 2010.) These overpayments occurred because the Hospital
           did not have adequate controls to report the appropriate condition and value codes in order to
           accurately reflect credits it had received from manufacturers. As a result of these errors, the
           Hospital received overpayments of $29,788.

           We concur with the audit finding that the hospital received an overpayment for $29,788.

           We have determined this to be an area of improvement for our organization. Key controls to
           prevent this type of error were not sufficient. The organization relied upon a communication
           from procedural areas to notify when a device credit or replacement device was received. The
           vendor's method of providing a credit for these devices against our outstanding balance was
           not readily identifiable by Finance, the charging department, or within the Patient Financial
           Services department.

           We have initiated improvements to our policy for identification of when replacement devices
           are used and have met with the various departments involved with the process to heighten




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                         16
           awareness of the importance in communicating when a replacement device is received. We
           have also taken steps to implement an edit that will not allow billing until review has occurred
           to assist in the identification of devices that are provided at a reduced cost.

           Incorrectly Billed as Separate Inpatient Stays
           For 2 out of 114 selected claims, the Hospital billed Medicare separately for related discharges
           and readmissions that occurred within the same day. The Hospital stated that the incorrect
           billings were a result of human error. As a result of these errors, the Hospital received
           overpayments of $20,194.

           We agree with the audit finding that the hospital received an overpayment for$20,194



           Internal controls include a review by HIM Coding Department to assess whether same day
           admissions are related stays. All same day readmissions are reviewed and a determination
           made prior to claim submission. In both instances, the determination was made after review
           that the stays were not related resulting in coding and billing occurring as separate stays.

           Both cases are a result of human error.

           Incorrect Discharge Status
           For 1 out of 114 selected claims, the Hospital incorrectly billed Medicare for a patient discharge
           that should have been billed as a transfer. Specifically, the claim was billed with discharge
           status code '7" (which denotes discharged against medical advice) when status code "6"
           (discharged to home under a written plan of care for the provision of home health services) was
           appropriate. The Hospital stated that, at the time of discharge, status code "7" was accurate
           because the patient left against medical advice. The Hospital added that a follow up
           appointment was made for the patient prior to discharge and that its staff did not complete a
           home health agency referral for the patient. Our analysis of the Medicare billing data for this
           patient indicated that the patient subsequently received home health services after discharge
           from the Hospital, and we acknowledge that this information would not have been readily
           available to or accessible by the Hospital's billing staff. Nevertheless, as a result of this error,
           the Hospital received an overpayment of $2,598.

           We agree with the audit finding that the hospital received an overpayment for $2,598.

           At the time of discharge, disposition 07 was accurate as the patient left against medical advice
           which is clearly documented in the record. A follow up appointment was made for the patient
           prior to discharge; however no HHA referral was completed prior to the patient leaving. The
           Nebraska Medical Center would have had no knowledge that the patient subsequently received
           Home Health Services after discharge from our facility.

           Our current controls and process include documentation of patient discharge disposition within
           the record from social work. Additionally, we have excellent relationships with surrounding




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                             17
           HHA's to notify us if we have referred a patient who subsequently refuses HHA services. The
           case above would not have been identified by social work or our HHA partners due to the
           circumstances in which the patient left against medical advice.

           The Nebraska Medical Center appreciates the opportunity to respond to the draft audit report
           from the OIG, and take these findings seriously. We are committed to improving our processes
           and believe our subsequent interventions will reduce the likelihood of the issues identified in
           the future. If there are questions following your review of the information provided, please let
           us know so we may respond appropriately.



           Siocerely,


           ~\~,c:2;vm_o_o_·r   ______

           CEO Clinical Enterprise
           Nebraska Medical Center



           cc. Diana Headley, Manager Compliance and Accreditation, Nebraska Medical Center




Medicare Compliance Review of Nebraska Medical Center (A-07-12-05037)                                         18
